<html>
<title> - FISCAL YEAR 2007 BUDGET</title>
<body><pre>[Senate Hearing 109-396]
[From the U.S. Government Printing Office]



                                                 S. Hrg. 109-396, Pt. 2
 
                        FISCAL YEAR 2007 BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON


 OVERSIGHT HEARING ON THE PRESIDENT'S FISCAL YEAR 2007 BUDGET REQUEST 
                          FOR INDIAN PROGRAMS

                               __________

                           FEBRUARY 23, 2006
                              BISMARCK, ND

                               __________

                                 PART 2

                               __________




                    U.S. GOVERNMENT PRINTING OFFICE
26-593                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

                     JOHN McCAIN, Arizona, Chairman

              BYRON L. DORGAN, North Dakota, Vice Chairman

PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
CRAIG THOMAS, Wyoming                KENT CONRAD, North Dakota
GORDON SMITH, Oregon                 DANIEL K. AKAKA, Hawaii
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
MICHAEL D. CRAPO, Idaho              MARIA CANTWELL, Washington
RICHARD BURR, North Carolina
TOM COBURN, M.D., Oklahoma

                 Jeanne Bumpus, Majority Staff Director

                Sara G. Garland, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Clancy, Lynn, on behalf of Hon. Kent Conrad, U.S. Senator 
      from North Dakota..........................................     5
    Davis, Ken W., chairman, Turtle Mountain Band of Chippewa 
      Indians....................................................     6
    Dorgan, Hon. Byron L., U.S. Senator from North Dakota, vice 
      chairman, Committee on Indian Affairs......................     1
    Gipp, David, president, United Tribes Technical College, 
      Bismarck, ND...............................................     2
    Hall, Tex G., chairman, Three Affiliated Tribes..............    12
    Pearson, Myra, chairwoman, Fort Totten, ND...................     9
    Skaley, Gail, on behalf of Hon. Earl Pomeroy, U.S. 
      Representative from North Dakota...........................     3
    Strongheart-Lopez, Matt, on behalf of Ron His Horse Is 
      Thunder....................................................    15

                                Appendix

Prepared statements:
    Conrad, Hon. Kent, U.S. Senator from North Dakota............    31
    Davis, Ken W. (with attachment)..............................    37
    Gipp, David..................................................    32
    Hall, Tex G..................................................    70
    McCain, Hon. John, U.S. Senator from Arizona, chairman, 
      Committee on Indian Affairs................................    31
    Pearson, Myra................................................    74
    Pomeroy, Hon. Earl, U.S. Representative from North Dakota....    34
    Strongheart-Lopez, Matt, on behalf of Ron His Horse Is 
      Thunder....................................................    34


                        FISCAL YEAR 2007 BUDGET

                              ----------                              


                      THURSDAY, FEBRUARY 23, 2006


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                      Bismarck, ND.
    The committee met, pursuant to notice, at 10:34 a.m. at 
United Tribes Technical College, Bismarck, ND, Hon. Byron L. 
Dorgan (vice chairman of the committee) presiding.
    Present: Senator Dorgan.

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
       DAKOTA, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Dorgan. We want to begin the hearing this morning. 
My name is Byron Dorgan. I am a U.S. Senator serving on the 
Committee on Indian Affairs with Senator John McCain and a 
number of our colleagues.
    We are holding today a hearing of the Committee On Indian 
Affairs in Bismarck, ND. Senator McCain has sent with me a 
statement that he wishes to be a part of the record. He was not 
able to be with me this morning.
    One week ago we held a hearing in Washington, DC, of the 
Senate Committee on Indian Affairs dealing with the President's 
budget, its impact on Indian tribes and Indian people across 
this country.
    I am holding a hearing today to talk with Indian tribes 
from our region here in North Dakota and to receive more 
specific information about the impact of particularly the 
President's budget cuts and the impact those cuts will have on 
tribes and will have on the citizens living on Indian 
reservations. We will be holding some additional hearings 
around the country, as well, on these subjects and other 
subjects, including Indian education, in the weeks and months 
ahead.
    I do want to say thanks to United Tribes Technical College 
for allowing us to use these facilities. Dr. David Gipp is a 
recognized national leader in education. He's president of a 
college that I have enormous respect for. I'm a real believer 
in United Tribes and what it does to enrich the lives of many 
young people.
    And I would also like to say to Dr. Gipp and to others 
gathered here who care about the future of United Tribes that 
although the President has once again recommended zero funding 
in his budget for United Tribes, I intend, once again, to write 
in the funding for United Tribes in the Interior subcommittee 
on which I serve. We have been doing that. I serve on the 
subcommittee that provides the funding and I'm the ranking 
member on that subcommittee on appropriations and I will see to 
it that we once again provide funding to this great college. My 
colleagues, Senator Conrad and Congressman Pomeroy, feel 
similarly strongly about this institution and I just want you 
all to know that although the President's budget does not 
request funding, I am confident that funding come from the 
Congress because the Congress has on many occasions represented 
its belief that this college is a wonderful college and worthy 
of funding.
    So let me ask Russell Gillette from the Three Affiliated 
Tribes to come forward and he will provide an invocation at the 
start of this hearing. Mr. Gillette.
    [Invocation given by Mr. Gillette.]
    Senator Dorgan. Russell Gillette, thank you very, very 
much.
    Next, I would like to, for a welcome, call on Dr. David 
Gipp, president of United Tribes.

  STATEMENT OF DAVID GIPP, PRESIDENT, UNITED TRIBES TECHNICAL 
                     COLLEGE, BISMARCK, ND

    Mr. Gipp. Thank you, Senator Dorgan and vice chairman of 
the Senate Committee on Indian Affairs. We're honored that you 
have brought the committee here today to listen to our tribal 
leaders and allow them to speak about the issues that relate to 
their budgetary needs and the future of their tribal citizens.
    This is a historic occasion, I should add, for all that are 
here today because, as far as I know, in my recollection, this 
is the first time that we've had the Senate Committee on Indian 
Affairs have an official hearing that relates to the budgetary 
matters of our Indian tribes. So we're very pleased and honored 
to host you today, as well as all of the other guests that have 
come today, Senator, and we appreciate your remarks about 
restoring or getting Congress to restore the funding of United 
Tribes Technical College. It's going to be the fifth time that 
we've engaged in this issue with the current administration in 
which they have left us out of the budget, and it would 
officially become the sixth time in 2008 fiscal year 2007 and 
2008 that we would have been left out of the budget.
    Only yesterday I was with some of our chairmen, Chairman 
Davis and Chairman Hall in Washington, talking to the Bureau of 
Indian Affairs [BIA] and the Department of the Interior about 
restoration of funds and about the issue of adequacy of Indian 
budgets for our various Indian tribes. So we recognize and know 
the tremendous importance of these kinds of hearings to assure 
that the administration is doing their job in serving Indian 
country adequately.
    Here at United Tribes, of course, we're going to be 37 
years old as of July 1, 2006, and that means we have been in 
the business for some years of serving thousands of children 
and adults over the these years. As of this year we are going 
to have served 1,114 adults and about 400 children on our 
campus and that's not counting the on-line students that we're 
beginning to offer through our long-distance or distance 
learning programs. So we are a growing institution and we 
represent what is happening throughout Indian country.
    I've said repeatedly that in Indian country when we talk 
about our tribes in places like North Dakota, South Dakota, 
Nebraska, Montana, and other places that 51 percent or better 
of our populations are under the age of 25. We have the growing 
population particularly here in North Dakota. We have the 
growing challenges to assure that everyone of our children and 
our young adults and older adults receive access to good 
education quality education and can be successful.
    At United Tribes here Senator our return on investment is 
20 to one in terms of the dollar return of our graduates. We're 
seeking about $4.5 million for our 2007 appropriation and we 
hope that you can look into that matter as you deliberate on 
the issues of the budget.
    I'm not going to digress too much. We have submitted record 
testimony. We would ask that testimony be accepted by the 
committee for purposes of the budget, Senator.
    In closing, I just again want to welcome all of you and 
mention a couple things. First, that we hope that our tribal 
colleges will be adequately funded. There are 26 of them funded 
under the Tribal Control Community College Act. Of course, 
United Tribes is outside of that and doesn't receive funding 
there.
    The second is that of assuring that we have safe, 
comfortable and affordable housing with respect to our tribal 
nations and the needs out there and certainly housing here at 
United Tribes. We're seeking housing for many, many new 
students that are entering here and, most importantly, the 
issue of health care. Health care remains a major, major issue 
for all of our tribal citizens here and throughout the Nation.
    Again, thank you for being here, and we will do all that we 
can to assist you and our tribal leadership, as well.
    Senator Dorgan. President Gipp, thank you very much. We 
appreciate those great comments and, again, thanks for the 
wonderful work you do.
    [Prepared statement of Mr. Gipp appears in appendix.]
    Senator Dorgan. I'm joined today by Sara Garland, who works 
on the Committee on Indian Affairs in the U.S. Senate, Peter 
Kiefhaber, who works on the Interior Appropriations 
Subcommittee in the U.S. Senate and also Gail Skaley, who works 
with Congressman Pomeroy here in North Dakota.
    Gail, did you want to say a word on behalf of Congressman 
Pomeroy?

  STATEMENT OF GAIL SKALEY, ON BEHALF OF REPRESENTATIVE EARL 
                            POMEROY

    Ms. Skaley. Yes; Congressman Pomeroy apologizes for not 
being able to be with you today, but he sincerely appreciates 
you bringing this hearing to United Tribes in Bismarck and 
appreciates that opportunity for him. I have some written 
testimony that I will submit on his behalf, and just thank you 
again.
    Senator Dorgan. Gail, thank you very much. Congressman 
Pomeroy is not a member of the Committee on Indian Affairs, but 
I did invite him to sit in. He was not able to do that. But I 
think you all know and it's safe to say that our entire 
delegation, myself, Senator Conrad, Congressman Pomeroy, work 
together on priorities dealing with the Indian nations and 
United Tribes, and I very much appreciate his statement. We 
will, without objection, put it in the record and also will 
enter into the record the statement of President Gipp.
    [Prepared statement of Mr. Pomeroy appears in appendix.]
    Senator Dorgan. Let me make just a couple of brief comments 
before I call on the testimony from the tribes, and Tex Hall, I 
believe, will be here in a bit. He, I believe, was landing at 
10:30 this morning and so we will expect him to join us as 
well.
    Back in the late 1990's I asked then President Clinton to 
host a meeting in the Oval Office of the White House of tribal 
leaders from our region of the country. We worked on it for 
some while, and then on 1 day we gathered in the White House 
and met with President Clinton. Were you there, Tom?
    Mr. Disselhorst. I remember the day well.
    Senator Dorgan. And I did that because I said to President 
Clinton, We have people in this country who are living in 
third-world conditions and we have a bona fide crisis in a 
number of areas, housing, health care, education, and we need 
to talk about that. And so President Clinton agreed to do that 
and we gathered at the White House for this meeting with the 
President, and I have never forgotten the testimony that was 
given. It wasn't a formal meeting, but the testimony given by 
the tribal chairs who said to the President--one of them said 
to the President, you know, I come from a third-world country, 
but it exists inside the United States, and then he cited all 
the statistics about the incidence of disease and poverty and 
accidental death and substance abuse and a whole range of 
things and it was very compelling. And President Clinton said, 
you know, we've got to do better, we've got to work on that.
    And, you know, we've made some progress. I think it's safe 
to say that we've made some progress, for example, in trying to 
finally address the scourge of diabetes. We've got diabetes 
clinics and dialysis centers. We've invested a lot. Have we 
solved that problem? No, but we're making some progress in 
certain areas. But I would say that 8 years later, 9 years 
later after that meeting there is still so much yet to do. We 
still have so many who live in poverty and so many who don't 
have adequate access to mental health services or to general 
health services or to the kind of education they should expect 
to have access to or housing. There is so much yet to do.
    And that's why I suggested to Senator McCain that we begin 
to hold these hearings. Senator McCain, as I do, cares very 
much about what we can do to address the human needs and 
address the investment needs to make life better for all 
Americans.
    Now, the point of this hearing is to hear from the tribal 
chairs. We have Ken Davis, the tribal chairman of the Turtle 
Mountain Chippewa Tribe; Myra Pearson, the tribal chairman of 
the Spirit Lake Tribe; Tex Hall will be with us, who is the 
tribal chairman of the Three Affiliated Tribes; and we also 
have Matt Lopez, who is in place for Ron His Horse Is Thunder 
from the Standing Rock Sioux Tribe today.
    My intention would be to ask that we have statements from 
each of the tribal chairs and allow them to tell us what they 
perceive as the needs, what they would like to see happen, and 
then we will have time for questions and answers.
    I do want to say that the President's budget is a 
significant disappointment to many of us. It's quite clear that 
we have to address this Federal budget deficit, there's no 
question about that, and we have to tighten our belts. It's 
quite clear there's waste in the Federal Government and we 
ought to cut out the waste. It's also clear to me, however, 
there are a number of things that we do that address poverty 
for people in this country that really need some help, and to 
have budget cuts in those areas I think is just wrong.
    The President zeroes out the Johnson O'Malley Program, 
which is a very important program for Indians, zero funding for 
United Tribes I mentioned, zero funding for Urban Indian Health 
Program, zero funding for the Tribal College Endowment Program, 
funding for only one Indian health facility in the entire 
country, you know, a $50-million decrease in school 
construction for BIA schools.
    This is a budget that's a significant disappointment 
because there's so much we need to do, and this budget in most 
areas retreats from that obligation. And my hope is that as 
Congress grasps this budget and begins to debate it and thinks 
through this budget, we can come to a better conclusion and 
come to a conclusion that we have a responsibility to make good 
investments and to improve the lives of Americans who are 
living, in many cases, below the poverty level and living 
without the basic services that you need in this country.
    So having said all of that, there are a couple of things in 
the President's budget that I should mention. He does include 
several million dollars for an Indian suicide prevention 
program. My guess is that that's because we held a hearing here 
in North Dakota, held a hearing in Washington, DC, and began to 
shine a spotlight on a very serious problem. We need to begin 
moving down that road to provide the resources to address it, 
and I appreciate the President's willingness to do that.
    So on relatively short notice, the tribal chairs have made 
themselves available to speak on behalf of their tribes here 
this morning, and I want to thank them for doing that. Before I 
call on the tribal chairs, I want to recognize Lynn Clancy, who 
is here representing Senator Conrad's office. Lynn, would you 
like to say a word on behalf of Senator Conrad.

   STATEMENT OF LYNN CLANCY, ON BEHALF OF SENATOR KENT CONRAD

    Mr. Clancy. Thank you very much, Mr. Chairman. And thank 
you for holding this hearing. Senator Conrad regrets that he 
cannot be here, but I do have testimony from him that I would 
like to have entered in the record. I don't intend to read it, 
but he would like to just express his disappointment in the 
President's budget and especially in the area of education and 
housing and health, but this is the fifth year that the United 
Tribes Technical College has been deleted from the budget, and 
he would like to support this effort today to make the record 
that things need to change.
    [Prepared statement of Senator Conrad appears in appendix.]
    Senator Dorgan. Thank you very much, Lynn. Let me point out 
that Senator Conrad is a member of the Committee on Indian 
Affairs in the U.S. Senate and does an excellent job and I'm 
pleased to work with him. He's in another part of the State 
today and simply could not be here, but I appreciate very much 
his statement.
    As I indicated previously, Congressman Pomeroy is the voice 
in the U.S. House that allows us to keep this funding for 
United Tribes, among other things, in the appropriations 
process, so I thank both of my colleagues and I thank them very 
much for their statements.
    I'm going to begin with Ken Davis. Ken is the tribal 
chairman from the Turtle Mountain Chippewa Tribe. In fact, I 
believe he has just arrived back from some meetings in 
Washington, DC, about this budget. The reason I've chosen you, 
Ken, I think you actually have some seniority over the chair; 
is that right? I think you became tribal chair before Myra did.
    Mr. Davis. One year before that. Myra used to be chair.
    Senator Dorgan. Myra used to be chair. Well, then skip it, 
Ken.
    Mr. Davis. There's been a little confusion.
    Senator Dorgan. Let me call on Chairman Ken Davis, and Ken 
Davis has been very active working on a range of issues on 
behalf of his tribe and, as I said, just arrived back from 
meetings in Washington, DC, on this very budget. So, Chairman 
Davis, thank you very much for joining us and why don't you 
proceed.

 STATEMENT OF KEN W. DAVIS, CHAIRMAN, TURTLE MOUNTAIN CHIPPEWA 
                             TRIBE

    Mr. Davis. Good morning, Senator Dorgan. Good to see you 
again. Members of the U.S. Senate Committee on Indian Affairs 
and other visitors and distinguished guests. I want to thank 
you first for holding this hearing today and I'm glad to be 
here to provide you this testimony. I know this committee, 
especially you, Senator Dorgan, Senator Conrad, and also 
Congressman Pomeroy, are special friends of Indian people and 
that you do the best you can to help us out and look out for 
our best interests.
    For those of you, as I've been introduced, I am the 
chairman of the Turtle Mountain Band of Chippewa Indians and I 
am a member of the National BIA Budget Advisory Task Force 
along with Chairman Hall.
    I want to give you a little background very quickly here on 
the Federal budget process. I don't know if many of you 
remember, but in fiscal year 1996, there was a major across-
the-board reduction in what we call the tribal priority 
allocations, and Senator Gordon at that time led that charge, 
and I just want to say those tribal priority allocations at 
Turtle Mountain, those reductions, those are the local funds. 
There's different parts, of course, of the BIA budget, but the 
local funds, we had a reduction from a little over $6 million 
to a little over $5 million, over a $1-million reduction.
    I want to say that we've never recovered--these programs 
that work at the reservation level have never recovered from 
those reductions. And now we see in the President's fiscal year 
2007 request a continued attempt, more significant reductions. 
And we understand there's a Federal deficit--budget deficit, we 
understand that there's a disaster in New Orleans in Katrina, 
we understand there's a war going on, but at the same time the 
needs of Indian people in this country, the first Americans, 
also are needed to be considered as we go forward with the 
Federal budget process.
    I want to remark that I think it's very important that the 
Cobell case gets settled because it is having a budget impact, 
not only the fact of what we've seen recently of the $7 million 
to pay attorneys and accountants, and so forth, but the 
priorities for the BIA to reform itself are siphoning off major 
resources that have been needed to be able to fund essential 
programs at the reservation level.
    I've got a philosophy that I've been promoting with the 
National Budget Committee. I call it a do-not-harm budget, that 
as we look forward and we look at the increased need due to our 
populations and also the cost-of-living increases and the pay 
cost increases as we move forward, even if we can't get 
significant increases, I respectfully ask those of you that 
appropriate this money consider do no harm, keep our people at 
a level at least that we're not going backwards.
    You had a hearing recently, Senator Dorgan, on suicide, and 
I don't see a lot in this budget to address many parts of 
what's needed to provide the types of necessary support 
services for suicide prevention.
    At Turtle Mountain you'll see in our testimony--I have 
provided written testimony that we do--we will be working with 
you and Senator Conrad and Congressman Pomeroy on some special 
requests for a community youth center for the young people of 
Turtle Mountain. And we recently got selected by the Northwest 
Area Foundation for a major poverty reduction initiative, and 
we hope to be able to leverage and broker some assistance there 
and other sources to deal with issues such as the high risk of 
suicide at Turtle Mountain.
    We have a continuing--and I've worked with your staff. We 
have a continuing crisis developing in Indian country on 
welfare assistance. Until we get our economic development and 
the tribal economies at the level that the rest of this country 
and the State of North Dakota is in, that we're going to 
continue to have to depend upon Federal assistance for the most 
basic essential needs of our people, and welfare assistance in 
the BIA is a necessary ingredient to be able to take care of 
those basic needs of a certain segment of our population. And 
if you wouldn't have restored the money in 2006--the President 
was planning to totally, totally wipe out welfare assistance in 
the 2007 request, but instead there's an $11-million reduction.
    And I've got information again in my testimony here that 
you will see that at Turtle Mountain that our numbers continue 
to increase. I'm providing you data to show you from 2002 the 
general assistance and burial assistance and emergency fire 
assistance and tribal work experience. Our caseload continues 
to increase, our total dollar amount continues to increase, 
while the administration says we need less money. And last year 
they started taking people off of welfare assistance and, of 
course, with your help again, we were able to get the 
administration to provide some supplemental assistance, and 
that is going to have to be done again in 2006. We can't wait 
until 2007.
    I want to thank you for your support and the committee's 
support of the IHS budget. I realize the medical needs of 
Indian people have always been a priority. I know you can't 
give us all we ask for, and the budget again is increasing in 
2006 and the administration is asking for an additional 
increase. That doesn't tell the true picture.
    I've got testimony again--written testimony that gives you 
a better insight into the true picture. The local budget that 
we have at our local facility is only able to provide priority 
1 contract health services. These are the life and death type 
of services. Other essential contract needs where you need to 
go to specialists for a variety of reasons, IHS--you're on a 
waiting list. And at the local level we're now using generic 
drugs, not being able to get some of the best drugs this 
country has to offer. Instead, we're having replacements with 
generic drugs.
    I want to also mention that we do have a tribal community, 
outer tribe, and in this President's budget request where they 
intend to wipe out Johnson O'Malley, reduce job training and 
the wildlife and parks, that's going to have a major negative 
effect. They get very little out of the Federal Government. 
They have been kind of a hybrid satellite community of ours and 
they've grown over the years, but, also, they are a part of 
this budget.
    I do want to mention this realignment issue, and I want to 
say the task force on reorganizing BIA in the 1990's came out 
clear that the BIA needed to delegate its authorities to the 
lowest levels in the BIA, not build up the hierarchy to the 
tune in 2007 of an additional $17 million to support education 
management at the central level. And they expect us to accept a 
diminishment of the federal presence and responsibility on our 
reservation. Every tribe I've talked to over the past 2\1/2\ 
years opposes this alignment, yet the BIA continues to move 
forward. Congress needs to require the BIA in fiscal year 2007 
to get our consent before any more dollars are spent on this 
realignment.
    I also want to say that in the early 2000's that there was 
a major backlog in construction and repairs.
    Again, I want to thank you for the assistance on the new 
school construction that we have at Turtle Mountain, but that 
doesn't tell the true story again nationwide. The construction 
and repair program since 2001 has been reduced 134 million by 
the administration, and this was a time when the backlog--we 
had the support of the Congress to get that backlog completed.
    I've gotten, as I said, considerable testimony here from my 
tribal program directors, and I do want to say we continue to 
support the restoration of the money for United Tribes and we 
also support the college movement and the need there. We 
understand that the ISA program for our children is probably 
underfunded to the tune of about 1,800 to $2,000 per weighted 
student unit, and I will be providing you additional 
information, Senator, as we go forward.
    I am going into Washington, DC next week. I hope to get a 
meeting with you and your staff, but there's more details in 
what I've provided in the written testimony. So with that I'll 
be glad to answer any questions or if you want to wait until 
the rest get done.
    [Prepared statement of Mr. Davis appears in appendix.]
    Senator Dorgan. Chairman Davis, I'm going to wait until all 
of the testimony has been completed, then I have a number of 
questions of you, but let me next turn--we are asking for 10-
minute statements and you were right on the button, Chairman 
Davis.
    Myra Pearson is the chairperson of the Spirit Lake Tribe. 
Myra, thank you for joining us and you may proceed and your 
entire statement will be part of the record.

STATEMENT OF MYRA PEARSON, CHAIRWOMAN, SPIRIT LAKE NATION, FORT 
                           TOTTEN, ND

    Ms. Pearson. Thank you, Senator Dorgan. Again, I'd like to 
say good morning, Vice Chairman Dorgan and distinguished 
members of the committee. Thank you for inviting the North 
Dakota tribal chairs to provide testimony on behalf of our 
respective nations.
    I am Myra Pearson, chairwoman of the Spirit Lake Nation, 
headquartered in Fort Totten, ND. Before beginning, I would 
like to thank the committee for supporting American Indian 
initiatives at the national and State level, and especially 
those projects where Spirit Lake was involved.
    By being here today, we as tribal leaders have been asked 
to testify about the needs and priorities of our tribes in 
terms of funding. These areas of need and priority are not an 
exhaustive list of our needs, but they are a start. By 
providing for these needs, we as tribal governments can 
carryout the mission that we undertook when we were sworn into 
office.
    Our tribal government is the primary policymaker for the 
four tribal communities on Spirit Lake. Because of this 
responsibility, we have come to realize the importance of using 
objective data to guide our decisionmaking and addressing the 
needs of our people. These needs vary by the age of our 
enrolled members and are influenced by our culture.
    We consider our children the future of our people, we 
respect our elders as keepers of our traditions, and value our 
veterans as protectors of our people. However, there are three 
issues that affect all groups. These are poor health status, 
access to health care and lack of housing. For Spirit Lake, 
most transportation issues such as distance and cost fall under 
barriers for access in health care. All of these issues are a 
result of poverty; thus, education and economic development are 
critical to addressing these needs.
    Health status and access to health care are the primary 
concerns for our tribal council as we continue to subsidize the 
health care of our tribal members due to inadequate IHS 
funding. Senator Dorgan and other distinguished members, we are 
aware of your support of the Indian Healthcare Improvement Act 
and request that you continue your efforts to get this 
legislation reauthorized. Your support is necessary to 
assisting our Federal Government in fulfilling one of the most 
important trust responsibilities for our people.
    The Aberdeen Area IHS Region, of which North Dakota is a 
part of, has the lowest life expectancy of all IHS regions in 
the Nation at 64.3 years of age compared to the 77.6 years of 
age for the Nation, a difference of 13.3 years. This disparity 
is partially a result of the rural isolation of the community, 
shortage of health providers and increasing poverty levels 
common among our people.
    According to research conducted by the University of North 
Dakota Center for Health Promotion and the UND Center for Rural 
Health, Spirit Lake adults, when compared to their North Dakota 
counterparts ages 18 and over, were found to have poorer health 
status, inadequate access to health care, higher health risk 
factors, less health screenings, and lower chronic diseases. 
The results of this data are listed in my testimony, and due to 
time restraints I'm not going to go into those percentages, but 
I hope that they become a part of my testimony.
    The lack of screenings and health promotion activities 
among our young and elder population are of special concern for 
our tribal council as we see a significant change in health 
once our population reaches elder status at age 55. We believe 
the lack of disease prevention, health screenings, chronic 
disease management, and health promotion efforts seen among our 
young tribal members eventually results in increased health 
disparities among our elders.
    Another primary issue to our council that is also a Federal 
trust issue is education of our young people. Results from the 
previously cited report indicated that Spirit Lake adults were 
less likely to have achieved higher levels of education when 
compared to their North Dakota counterparts.
    These results mirror national statistics provided in recent 
Senate Committee on Indian Affairs testimony on February 16, 
2006, by Ryan Wilson, president of the National Indian 
Education Association. Increased funding initiatives to raise 
the educational status of our people are imperative. Our 
children continue to test below their North Dakota 
counterparts, and increased funding is needed to provide a firm 
educational foundation for our children. Tribal college 
students are funded at one-half of what non-tribal community 
college students receive at $4,447 per full-time student, 75 
percent of what is authorized. Regardless of the age of our 
student population, we request your support for the NIEA 
initiatives proposed in last week's testimony.
    The correlation between health status, education levels and 
socioeconomic status is well documented. Thus, the issue of 
education is critical to raising the health status and overall 
income of our people. By raising education levels, we not only 
increase earning capacity and one's ability to access health 
insurance and health care, but we also increase the amount of 
taxes paid into our Federal Government.
    A housing shortage at Spirit Lake is denoted by 233 
families currently on the housing waiting list. In most cases 
overcrowding is occurring with multiple families residing in 
homes built for single families. Recent flooding on our 
reservation and the resulting high water table has also caused 
mold problems that have raised additional health concerns 
regarding asthma and other respiratory diseases. Substandard 
housing weatherization has resulted in increased heating bill 
costs that are severely affecting our tribal members' ability 
to make ends meet.
    I also want to make a part of my testimony that the law 
enforcement and tribal courts are severely underfunded. At 
Spirit Lake our tribal court is currently staffed with two 
judges, three clerks and a juvenile officer. Our law 
enforcement agency is forced to work in conditions where often 
only one police officer is assigned to a shift. Further budget 
cutbacks for these programs has an effect upon the ability of 
law enforcement and the courts to administer justice. Not only 
that, but these law enforcement officers are placed in extreme 
risk of injury by being forced to patrol an entire reservation 
alone.
    These issues facing our communities in the area of public 
safety not only affect our community, but also neighboring 
communities with such issues as sex offender registration, 
domestic violence and an emergence of drugs such as meth. We 
are seeing a need for State, tribal and Federal law enforcement 
agencies to cooperate now more than ever. In order for tribal 
communities to be safeguarded, we need to be sure that our law 
enforcement and tribal courts are adequately equipped to do 
their part in combating these social problems.
    Also, we have a tremendous need for a detention center. At 
Spirit Lake we have no juvenile detention at all. We are forced 
to contract with state facilities when funding is available, 
and much of the time it is not. The end result is that many 
juveniles are committing crimes more often and it is becoming 
more serious in nature. I believe that this is due to the fact 
that a juvenile offender knows when they come before the court, 
the judge will not be able to send them to detention because no 
detention exists. With no alternatives such as work service 
programs or home monitoring, the juvenile court is extremely 
limited in what it can do to hinder juvenile crime on the 
Spirit Lake. We need funding for juvenile facilities and 
alternative programs if we are to end this cycle among our 
youth.
    As a part of our mission, our tribal governments are 
responsible for ensuring that general health and well-being of 
our people are provided for and protected. There is no doubt 
that these budget shortfalls significantly impact our ability 
to carryout this mission.
    Beyond the budget shortfalls, I am concerned over the 
apparent unwillingness of the Federal Government to listen to 
the tribes when we do provide comments and input in budgetary 
needs. The 2007 budget cuts are a clear reflection of this 
unwillingness. Tribal leaders were among the many consulted 
with Federal agencies on the 2007 budget, and still the 
comments and input from those tribal leaders were seemingly 
ignored.
    All of the above-mentioned issues are critical and of 
priority to Spirit Lake. We recognize the importance of applied 
research in developing plans of action. However, we also 
recognize our culture and our community expertise must be 
implemented if these efforts are to be successful. We are open 
to working with your committee to move forward in the effort of 
addressing the disparities being experienced across Indian 
country. Furthermore, we applaud your efforts to reach out to 
the North Dakota tribes to get a better picture of our needs. 
And I thank you for this.
    [Prepared statement of Ms. Pearson appears in appendix.]
    Senator Dorgan. Chairperson Pearson, thank you very much. I 
want to read into the record just a couple of statistics that 
you did not. There are a number of them that come from the 
University of North Dakota Center for Health Promotion and some 
that come from the National Resource Center on Native American 
Aging and they relate to the adults on your reservation.
    Spirit Lake adults were 59 percent less likely to have 
health coverage, 52 percent less likely to have a personal 
doctor, 78 percent more likely to be obese, 193 percent more 
likely to smoke, just to pick out some, 288 percent more likely 
to chronically drink. The National Resource Center on Native 
American Aging in your statement says that Spirit Lake elders 
were 44 percent more likely to have arthritis, 90 percent more 
likely to have congestive heart failure, 206 percent more 
likely to have diabetes, 375 percent more likely to have colon 
or rectal cancer.
    I just point out that your testimony includes some 
statistics that also describe some very serious problems and 
some very serious, especially health care, issues faced by 
members of your tribe.
    Tex Hall is here. Did he just leave? Tex is hard to pin 
down, you know. Tex Hall has now joined us. I indicated, 
Chairman Hall, that you were coming in on an airplane. We have 
a seat up here and we're about ready for you if you're willing 
to offer us testimony. What we have been doing is asking for, 
Chairman Hall, a 10-minute oral testimony, if you will.
    Mr. Hall. Oh, I'll keep it to 10 minutes, Senator.
    Senator Dorgan. Then we will hear from Matt Lopez, who is 
speaking on behalf of Chairman Ron His Horse Is Thunder from 
Standing Rock. As I introduce Tex Hall, I should say that we in 
North Dakota have been enormously proud of his national 
leadership, two terms as president of the National Congress of 
American Indians, and Tex has been very involved.
    Chairman Davis, you mentioned the Cobell case, and I know 
all of you have been involved in that, none more so than Tex 
Hall, in trying to develop a national concensus on how we try 
to address the Cobell case, because, I agree, Chairman Davis, 
that we have to find a way to see if we can resolve that. It 
has an impact on so many other things. At any rate, that's a 
long introduction. Chairman Hall, we know you have been flying 
this morning, but we're very pleased your being with us to 
speak on behalf of your tribe, the Three Affiliated Tribes.

  STATEMENT OF TEX G. HALL, CHAIRMAN, THREE AFFILIATED TRIBES

    Mr. Hall. Good morning, Senator Dorgan, all of the staff 
that are here and Dr. Gipp and all of the public that's 
gathered here. I want to thank you, first of all, for the 
hearing. We're very proud of your leadership in bringing the 
Senate Committee on Indian Affairs basically right here to 
United Tribes College in Bismarck.
    As you mentioned with Chairman Davis and Chairman Pearson 
and Matt Lopez, we have been working with the BIA--on the BIA 
2007 budget and we're very concerned that--``consultation'' is 
a word that I really think that we would like to work with the 
committee on defining what that means. And I caught the end of 
Chairwoman Pearson's testimony about when we prioritize law 
enforcement because of the problems that we have and the lack 
of law enforcement officers--they say there's 15 million short 
nationwide--and we don't get adequate funding for that, it 
appears that that's not real meaningful consultation. So I 
really would like to look at it. There's a past--President 
Clinton and President Bush have an executive order that 
requires meaningful consultation, but I guess if we meet and 
discuss and agree and if we come back and then the priorities 
change, maybe we have to define even further what ``meaningful 
consultation'' means.
    I do want--a second point, Senator. I do want to touch on 
the recent 7.7 million that was paid for the--to the Cobell 
attorneys. And in talking with Jim Casson, I believe there was 
a--I want to say a .1 percent across-the-board rescission with 
the exception of, I believe it's education and law enforcement, 
but still, nevertheless, the rest of the programs were an 
across-the-board cut, and I really question the legality, Mr. 
Chairman, on that.
    I believe that the budget should be a do-not-harm budget as 
it comes to the Cobell lawsuit because that is clearly an 
attack--to me, in my opinion, Mr. Chairman, it's an attack on 
the plaintiffs or the allottees trying to seek justice, and my 
understanding the judge paid--required a payment of 7.7 for the 
attorneys under the Equal Access to Justice Act. Well, there's 
not equal justice for the 500,000 Native Americans who are 
seeking justice through the Cobell to amend their programs to 
get an across-the-board cut. We're very concerned about that 
and look forward to your leadership in S. 1439, the McCain-
Dorgan Trust Reform and Settlement bill, and I understand 
there's a hearing that's coming up.
    I do want to mention the ILCA under that section of the 
bill, S. 1439. Fractionation is a huge problem for our tribe, 
the Mandan, Hidatsa, Arikara Nation. For all of the tribes here 
in North Dakota it's a major problem. And the amount and the 
probates are backlogged and the budgets just don't reflect 
adequately our backlog of just trust transactions, lease and 
approval. Land sales, land trades, land exchanges, gift deeds 
are just a tremendous backlog. Then if you look at the 2007 
President's budget, there is a cut in realty transactions. So 
you can put all the money you want--there's an increase in the 
ILCA budget, Indian Land Consolidation Act budget, but if you 
don't put the increases in the people that do day-to-day land 
transactions, you'll never get to the backlog and the money 
will just sit there and the BIA will be forced to reprogram to 
another priority so the money will not be used for what it's 
intended for.
    The last point on ILCA I would like to make is currently 
the way the law reads is that the family members or family 
farmers or ranchers cannot access this program. Only the 
tribes. So if there's a fractionation for a family, that 
they're out of luck. And I would recommend that maybe in S. 
1439--I know there's a land consolidation piece of your 
legislation, Senator Dorgan, that we look at that and we 
discussed that here at the United Tribes College among the 
tribal chairs previously.
    I received testimony from all of our staff and they're all 
very concerned. We have 64 departments and 550 staff members at 
the MHA Nation. Welfare assistance is proposed to take a cut in 
the President's budget. Road maintenance is proposed to take a 
cut. The Johnson O'Malley Program is to be eliminated. The fire 
protection program is to be eliminated. So we're very concerned 
that--these programs are so vital. That's what we were talking 
about, Chairman Davis, yesterday about do not harm. There 
should be a do-not-harm mechanism for these budgets because 
there's a treaty obligation and trust responsibility. And if we 
lose our fire program, we have no access to protect our 
communities. We can't have safe and self-sustaining 
communities. If we lose our law enforcement officers, and we 
have 6 BIA cops and 10 tribal cops that were funded under the 
COPS DOJ grant that expired now this year. So as of January, 
last month, the tribe is using JTAC funds to pick that up.
    On health care, we're supplementing over 2 million a year 
for our CHS and our contract health--JTAC funds. We're afraid, 
Senator--JTAC funds were not intended to supplant the BIA, and 
that is exactly what is happening over and over, and I can go 
down the list.
    On higher education--we really place a strong emphasis on 
our education and our higher education. We're now down--with 
the reductions we're down to 1,350 each--$1,350 for each. And 
we had over 350 eligible. Now we'll have to cut that down to 
probably 100 less. And our statistics--it's in our testimony, 
Mr. Chairman, we're very proud. For those that have a 3.5 or a 
better--20 percent of the 350 are over a 3.5. For those that 
are 3.0 and above, we are 55 percent. For those that are 2.0 
and above, we're 20. So basically 95 percent of our higher 
education students are over 2.0 GPA. So the results--this is a 
good investment, the results are there, and, unfortunately, the 
budgets are getting less and less. So we just really want to 
emphasize.
    And, of course, our college here is again eliminated from 
this budget. And we really get confused when we go into the 
administration meetings like yesterday and they talk about PART 
and they talk about GPRA, about how the Government Performance 
Results Act, requires all these tribal programs to produce good 
results and then we give them statistics and then we don't know 
what happens to those statistics when the budgets get cut. It 
doesn't add up. We're trying to really make these dollars--and 
we could go to law enforcement. Crime is being reduced because 
of our law enforcement, but the budgets are not. We can go to 
education on Johnson O'Malley and higher education. The results 
are there, but our budgets are being cut. So it's really 
confusing on how the Government Performance Results Act or 
PART, the Program Assessment Rating Tool, is administered. It 
appears to be arbitrarily administered to us, Mr. Chairman. So 
I don't know what the committee can--how they can help the 
tribes look into that because we get--we kind of get the run-
around when we ask the administration, and they just say, well, 
you got to keep doing the PART, you got to keep doing the GPRA.
    On health care facilities, we're very concerned, of course, 
of that cut again, and it's only down to 18 million, and 
there's a number of facilities to be constructed on the 
priority list in the Aberdeen area, and including our tribe, 
which is looking to get outside that area, because if it's 
under that 18 million, as you know, under the President's 
budget, Mr. Chairman, we have been waiting since 1948, it will 
be another 50-some years beyond this before--at 18 million 
it's--they know--the administration knows that there's a $1-
billion backlog. Again, it's confusing. I don't know how they 
justify their budgets. So our tribe and all the tribes will be 
waiting for another 50 years to get either on a priority list 
or to get adequate funding.
    And I see Urban Indian Health is entirely eliminated, and 
half of our people live off the reservation. Many of our people 
live in Bismarck, Mandan, Fargo, and Grand Forks. And I do not 
understand, Mr. Chairman, how the administration again 
justified eliminating a program when they have a trust 
responsibility. And that to me, I guess, would be--my own 
opinion is they don't understand the trust responsibility.
    And, anyway, Mr. Chairman, I could go on and on, but I want 
to submit my entire testimony for the record, Mr. Chairman. I 
would be happy to answer any questions.
    Senator Dorgan. Without objection--I have a number of 
questions, but we will have your entire statement printed in 
the record.
    [Prepared statement of Mr. Hall appears in appendix.]
    Senator Dorgan. Next, Matt Lopez is here on behalf of 
Chairman Ron His Horse Is Thunder from the Standing Rock Tribe. 
Matt, would you want to proceed?

STATEMENT OF MATT STRONGHEART-LOPEZ, ON BEHALF OF CHAIRMAN RON 
        HIS HORSE IS THUNDER, STANDING ROCK SIOUX TRIBE

    Mr. Strongheart-Lopez. Good morning, Senator and members of 
the committee, and welcome. We also want to thank you for being 
here this morning.
    My name is Matt Strongheart-Lopez and I'm a councilman at 
large, also the vice chairman of the HEW Committee for Standing 
Rock. And Chairman His Horse Is Thunder regrets that he could 
not be here this morning for sake of the loss of one of our 
constituents. James Jamerson passed away last week, and he was 
recently elected from the Running Antelope District, 
representative to the council, so his memorial service is today 
and so he will be there. But, nonetheless, I just want to give 
you, Senator and your office, our regards there from Standing 
Rock.
    And this morning, as you know, we do have many, many issues 
which have already been addressed, and so forth, for your 
hearing today, but for us, you know, we want to prioritize 
education and the restoration of the Johnson O'Malley and the 
higher education and the BIA education, and so forth.
    The main--one of the reasons that we want to bring this 
forward, just to be able to tie together the BIA cuts and IHS 
cuts, is that, just for an example, with the new regulations, 
you know, being passed down With No Child Left Behind, many of 
our schools, of course, are not maintaining their adequate 
yearly progress, [AYP] but they're identifying attendance as a 
major factor in that. And so when we as a tribal government go 
forth to pull on those resources within the BIA judiciary or 
law enforcement to address this issue, they're not there, it's 
not happening for us. So the effects for these budget cuts to 
our communities impose a significant malfunction in our society 
and for those lack of law enforcements and to maintain our 
courts and, also, you know, allowing for our children not to go 
to school, and so forth. But, most importantly, where it ties 
the IHS in, and I know you have paid close attention to, 
Senator, is that this opens the door for unsupervision for our 
children and which leads to the suicides and, you know, we just 
can't put a figure on this human life, and so forth.
    So, you know, as you ask, how is this going--how are these 
budget effects going to affect Indian country? Well, in that 
area is one and, you know, of course, as you know, we maintain 
an economy in surrounding communities, but also just the 
economy within the communities of our reservation. You know, 
it's important to us just to have that IHS not only in mental 
health, the health budgets restored, but also our construction 
dollars in the IHS.
    So I'm sure that we'll have other testimonies dealing with 
those treaty rights--it's been mentioned--and trust 
responsibility, but I'll just close with that. I do have more 
testimony to submit there to you, but, most of all, Senator, we 
want to thank you for your work and, most importantly, for your 
loyalty to Indian country. So thank you.
    [Prepared statement of Mr. Strongheart-Lopez on behalf of 
Ron His Horse Is Thunder appears in appendix.]
    Senator Dorgan. Matt, thank you very much. Your entire 
statement will be made a part of the record.
    Let me ask first about Johnson O'Malley funds. Many people 
wouldn't know what Johnson O'Malley funds are. My understanding 
is that the Johnson O'Malley funds are allowing you to provide 
for after-school programs that provide for young students' 
tutoring and counseling after school, and I think it's an 
investment of about $80 per student. Can you tell me how the 
Johnson O'Malley funds are used and how many students on your 
reservation are affected? And, as you know, the President would 
zero out this program. What would the impact be on the children 
of your reservation? Mr. Davis.
    Mr. Davis. Senator, at Turtle Mountain Johnson O'Malley 
funds the students that attend the surrounding public schools 
at St. John's, Dunseith Public, Rolla, Rolette, and those 
moneys come through the tribe, and roughly the number is 
around, I believe, 700, 800. The program has been decreased 
significantly over the years. It's on a formula basis. But the 
actual money does a lot of things. And I look at it, Johnson 
O'Malley is supplemental--exclusively supplemental.
    When it was passed in 1934, there was a big provision for 
direct primary support of public schools, but that got done 
away with in the seventies and since then it's been only a 
supplemental program. And I consider it the type of program 
that helps us build self-esteem of students for areas that 
their parents cannot financially help them or else the school 
system can't actually help them. It could be after-school 
tutoring, it could be helping getting class pictures, because 
if you couldn't afford them, a kid's self-esteem would be hurt, 
for camps, both academic camps and other sports camps some kids 
get sent to. It's a variety of supplemental services.
    Senator Dorgan. All right. But, also, it includes the 
principal after-school programs for children who in some cases 
have nowhere else to go and get tutoring in these programs. Is 
that correct?
    That is correct.
    Senator Dorgan. Chairman Hall.
    Mr. Hall. Mr. Chairman, real brief, the way--as an old 
superintendent, the way I look at it is that it's so important 
for those kids that need the program for after-school 
activities, for extracurricular, including tutoring. For some 
kids, if they don't get tutoring, they're not going to pass. 
They need extra help in math or English or science, wherever 
their weakness is. For those kids that can afford tutoring or 
for those districts that have--real wealthy districts, those 
kids are going to make it.
    On my reservation it's between 100 and 150 kids. It's about 
$80,000 to $100,000, the budget fluctuates. But those 100 to 
125, 150 kids, they will be eliminated, I envision, because a 
lot of these kids are at that place in their school where they 
can succeed or they can't succeed. So the program clearly makes 
a difference, and, again, I don't understand why it was 
eliminated when it makes such a tremendous difference for those 
kids and families.
    Senator Dorgan. Was there any consultation with any of you 
by the administration, by the BIA about the potential 
elimination of the Johnson O'Malley program?
    Mr. Hall. Absolutely none whatsoever. We were actually on 
record, the Tribal Budget Advisory Council, [TBAC]. That's 
where Ken and I represent the region, as well as Cecelia Fire 
Thunder from Pine Ridge. We represent the Aberdeen Area Office 
TBAC, which represents the 12 regions of Indian country. Nobody 
wanted this program cut. We're hearing from Alaska tribes, the 
Dakota tribes, the Oklahoma tribes--these areas are really 
concerned--and Mexico--are very concerned where most of the 
Johnson O'Malley funds are.
    Senator Dorgan. Let me ask just 1 moment about contract 
health. The Indian Health Service has not been very forthcoming 
when I've asked them some pretty tough questions about this, 
and I understand why, but, you know, I have been asking them 
what are the unfunded health care requirements as a result of 
your budget. In other words, stated another way, what percent 
of the need for health care is being met under the trust 
responsibility here? I finally have gotten an answer from them, 
although it's not on the record, it's on background, but the 
answer is between 60 and 65 percent of the health care needs of 
American Indians are being met. Translated, 35 to 40 percent of 
the health care needs are not met.
    Now, as I try to answer the question and, I guess, ask the 
question, what are the needs that are not being met? Part of 
it, I think, was in the testimony that you've given today. You 
talk about the contract health care waiting list. My 
understanding is that the funding for the contract health 
care--that is, health care that you're going to have to get at 
some other facility--is sufficiently low so that only a certain 
kind of life-threatening disease or life-threatening event is 
able to be covered and other things you just wait for. So tell 
me, what are those things that you can't get health services 
for? What are they waiting for? Because there's not sufficient 
money in the contract health care area?
    Mr. Hall. Mr. Chairman, that's really a red flag for our 
tribes. Actually, we're funded at 45 percent. We did an 
analysis. Again, that's part of our JTAC funds that supplement 
what we can. But priority 1 is what you're alluding to, Mr. 
Chairman, and that has to be life- or limb-threatening in order 
for you to get a referral approved. Then there's a report done 
now in Aberdeen that's called Don't Get Sick After June. That 
means your budget runs out in June in contract health. This is 
the facts. And some of the folks are laughing in the audience. 
They're laughing because that's how crazy it is. This report 
really was done--I think it was targeted for Aberdeen. Don't 
Get Sick After June means they run out of contract health, so 
you've got to postpone that surgery, you've got to postpone 
that operation, so many people just simply go without.
    And the troubling part of it is what happens when it's 
carried over to the next year? If I was a priority 1 client and 
it was after June, I wouldn't get that surgery, so they may 
tell me I have to come back, you know, next--maybe October 1 or 
October 2 you could get that surgery. Well, what happens if my 
priority gets changed to priority 2 or 3, which I know it 
happens, and when it goes to 2 or 3, then I'm not eligible for 
contract health because only priority 1.
    Senator Dorgan. And priority 1 is life and limb?
    Mr. Hall. Yes.
    Senator Dorgan. Myra, what are the examples of that?
    Ms. Pearson. Exactly what Chairman Hall said. IHS is 
prioritizing your illnesses and stuff and only if you're a 
priority 1 is when you're going to receive your health care.
    But I also ran into this the other day when I was home. I 
get all those calls at my office, you know, when something is 
going on down there, but I got two calls and they both were in 
regards to diabetes. There was a young girl, 17 years old, who 
needed her insulin and then there's an elderly lady in her 
eighties that needed her insulin. When they went down there to 
get their medication for them, they told them they were out of 
the insulin. So it's things like that. You know, there's 
shortages on the medicine. Your priorities have to be dealt 
with either in Grand Forks or here in Bismarck. Grand Forks 
don't take any of the people from Spirit Lake anymore because 
they haven't paid the bills and now they're referring them down 
here to Bismarck.
    Senator Dorgan. And they haven't paid the bills because of 
contract health payments. Let me ask you this. Under contract 
health, under the old system, if you actually went and got the 
service, then somehow contract health didn't pay for it, isn't 
that a circumstance where it comes back and ruins the credit of 
the individual that got the service?
    Ms. Pearson. Your names are entered into the credit bureau.
    Mr. Hall. Mr. Chairman, could I just make one real brief 
comment?
    Senator Dorgan. Yes, Tex.
    Mr. Hall. I have tribal members, that they stop by my house 
because the debt collector--because IHS has not paid for their 
medical bill even though they were approved but ran out of 
money. They were garnishing their income tax that comes into 
their bank account. I've had ladies--men and women come in with 
their five or six kids. I think they just did that just so I 
can see who's not getting that money, that income tax return.
    Senator Dorgan. That's shameful. Ken.
    Mr. Davis. Well, a couple cases that I've had--under 
contract care there has been a few and I've been unsuccessful. 
We've had some tribal members who have been off the reservation 
and all of a sudden this one lady had certain abdominal pains 
and she came into the emergency ward here in Minot and she 
ended up getting hospitalized. The doctors determined that she 
needed to be put under surveillance, and she was, she went back 
and requested for coverage. They have a 72-hour rule. They 
turned her down and said it wasn't life-threatening.
    You've got a whole bunch of specialists also, whether it's 
a knee surgery, whether it's a hip replacement, whether it's a 
foot, and in some cases detoxification--individuals have to be 
sent to other places for detox. Sometimes it's youth placements 
for mental health reasons or other reasons, but, again, 
contract care moneys are not available so they have a waiting 
list, and those waiting lists are never reached anymore because 
priority 1's are all they do.
    Senator Dorgan. Let me ask which of you have any community 
youth centers? That issue came up when I held the hearings on 
youth suicide. Matt, does your reservation have a community 
youth center?
    Mr. Strongheart-Lopez. I believe we do, Senator. It's the 
Boys and Girls Club. And, you know, we've, of course, continued 
to find funding and activity for them in this facility. But, 
again, I would have to pull on staff to get figures of what 
kind of numbers are run through the facility, but I think, 
also, we need to develop--we need to advance that also into the 
youth--you know, not just the younger children, but into the 
youth, as well.
    Senator Dorgan. But I don't believe you have a significant 
youth facility, do you, at Standing Rock----
    Mr. Strongheart-Lopez. No.
    Senator Dorgan [continuing]. Where you can conduct 
substantial organized activities? Let me ask you a question. 
What is the unemployment rate at Standing Rock. Do you know?
    Mr. Strongheart-Lopez. Well, the unemployment is going to 
run between 60 and 70 percent. This is of enrolled members who 
are able and willing to work, but don't--but can't have that 
job.
    I just wanted to mention something, Senator, on this with 
the IHS and the staffing of these facilities and the doctors. 
One of the things, we know we're running into patients having 
lack of services with patients, and so forth, but, you know, we 
also lack the number of doctors to provide that service, as 
well. It's similar to the BIA law enforcement thing, as I 
understand it. But I just want to make mention of that, that we 
do have that lack of doctors. And many of our facilities run 
into problems with that in the weekend service, as well, with 
the IHS.
    Senator Dorgan. Let me ask, if I can, of Chairman Davis, 
what is the unemployment rate on your reservation?
    Mr. Davis. The last labor force report that was done had it 
around 65 percent, Senator.
    Senator Dorgan. Okay. And I'm going to come back to that 
and ask about economic development. That is the reason I'm 
asking that question. Do you have a significant community youth 
center on your reservation?
    Mr. Davis. No; we don't. We have been in a planning process 
and I've included some in testimony here, but it was a priority 
of my administration that I wanted to address this particular 
need, and we're in the process right now working with an 
architectural firm. We've laid out the program, we're doing the 
initial design of it--or we're doing the fund-raising now. And 
the intent there, I'll just give you an example. I've got a 
grandson of mine that I raised, 15 years old. Every time I 
wanted to take him to the swimming pool in the summertime, I 
had to take him off the reservation. Every time in the 
wintertime I wanted to take him to an ice-skating rink, I had 
to take him off the reservation. Every time I wanted to take 
him to a movie, I've got to take him off the reservation. Not 
everybody, with the high rate of poverty we have, has that type 
of resource and ability to do that with their children, so 
their children don't get those opportunities. And we realize 
there's a segment of our population that were like me when I 
was growing up, that were not a part of the--I call it the 
reservation middle class the reservation has. They are the ones 
that are stuck away in the bush or they're stuck away in some 
of these housing projects and they're not into the mainstream 
of youth activities, and we need to reach those kids because 
those are the ones that are vulnerable for drugs and other 
delinquencies.
    Senator Dorgan. Myra, do you have a youth community center 
of any significance on the reservation?
    Ms. Pearson. No; we've got a recreation center in each of 
the districts, but like Standing Rock said, we're working with 
the Boys and Girls Club, which we've only started working with 
them. They've been around, but because they didn't, you know, 
combine the two programs, they finally started working with us, 
and they agreed to come into the tribe as part of the tribal 
programs.
    But, again, we have a lot of youth out there that, because 
of transportation, aren't able to get into these centers for 
activities. We did have a little $9,000 grant that we were able 
to go and buy some computers that were set-up in each of the 
districts so the students can use them for perhaps after-school 
tutoring and stuff.
    Senator Dorgan. And what is the unemployment rate on your 
reservation?
    Ms. Pearson. Oh, it was 65 and I think it's higher now. We 
just had--we had Golden Eagle Wireless now almost completely 
shut down.
    Senator Dorgan. Tex, what is the unemployment rate of the 
Three Affiliated Tribes?
    Mr. Hall. It's about 50 percent, Mr. Chairman. But like the 
other tribes have mentioned, North Dakota and South Dakota 
tribes, the average is 75 percent. We just looked at those 
numbers. This is the poorest region in the entire country and 
one of the largest land base, just under 9 million acres for 16 
tribes in the Dakotas and Nebraska, and probably just under 
300,000, so it's one of the most populated and biggest land 
base regions and the most allottees and landowners, but yet 
still economic development has not come to our region.
    Senator Dorgan. Let me ask you about economic development 
because that has a pretty big impact on the question of what 
social services are needed. You know, obviously a good job that 
pays well is a pretty significant part of someone's life, 
allowing them to do a lot of the other things, and yet with 
high unemployment rates, because there's just a lack of 
employment opportunities in many of these areas, there then is 
increasing claim on the human services needs. Can you just give 
me a brief description of your view of economic development in 
the future on your reservation?
    Mr. Hall. Well, thank you for the question. I really--as 
the tribal chairman for quite some time now, since the 
beginning I've always focused--my focus has always been on 
creating a real economy, a self-sustaining economy that 
includes both tribal businesses and individual entrepreneurs 
because, in my opinion, that's what builds Main Street, and 
many of our communities now have a community center and they 
now have a small convenience store with gasoline sometimes. 
Every now and then we get a daily newspaper in some of our 
isolated communities. And we just started getting--in my 
community, Mandaree, we're just now starting to get a regular 
daily newspaper, so we're really proud of that, even though 
many of us still haul water and we're really isolated. So 
economic development is critical because----
    Senator Dorgan. Can I stop you at that point? You talk 
about hauling water and I've heard this discussion before just 
in recent days. Are there a fair number of people hauling water 
on your reservation?
    Mr. Hall. Just under 300, Mr. Chairman.
    Senator Dorgan. 300 citizens are hauling their water for 
their daily water needs?
    Mr. Hall. Yes; they are. Only the communities--the six 
communities on Fort Berthold in part of the Dakota Water 
Resources Act are hooked up. The outlying rural houses are not. 
The water pipelines have not reached. And, of course, that's 
under your leadership with the 70 million that was authorized 
for the Three Affiliated Tribes.
    Senator Dorgan. Right.
    Mr. Hall. So hard work and finding good jobs is critical, 
especially when you can't get sick after June with IHS. 
Everybody looks for trying to get a Blue Cross and Blue Shield 
medical card. Many of our people don't have a 401(k) or a 
403(b), that's just absent, because that's like chocolate on an 
ice cream cone. A lot of our people never accomplish a 401(k) 
or a 403(b). So we're looking for real jobs that pay real good 
wages. And, of course, we have a couple of construction 
companies that are looking at 8(a) contracts.
    And, Mr. Chairman, I understand that the 8(a) USDA program 
is under attack by many people in Congress that want to 
eliminate it that don't understand for those tribes where real 
gaming has not really been a real huge impact for us out in 
rural North Dakota, the 8(a) program is critical because it 
gives you preference to your tribal or individual business to 
get contracts. And so, of course, Mandaree Enterprise 
Corporation, MHA Systems and our Buffalo Enterprise and all of 
our businesses are really dependent on that 8(a) program to 
supply the USDA or the school hot lunch program.
    But equity--getting equity for finance--enhanced financing 
just continues and just business development continues to be a 
real tough battle for us.
    Senator Dorgan. Myra, are there people hauling water on 
your reservation for their daily water needs, as well?
    Ms. Pearson. Out toward the western part of the 
reservation, yes, for drinking water, and some of them don't 
use it for doing the laundry or house chores or anything like 
that.
    Senator Dorgan. Ken, what about your reservation, do you 
have people hauling water still?
    Mr. Davis. Senator, we've got a number of people that are 
on a waiting list for water and sewer, and so, yes, they must 
be hauling water because they don't have it hooked up. So we 
got a rural water system on the reservation, it's a fairly good 
delivery system, but, still, if you don't have the sewage 
system set up, it doesn't help you a heck of a lot.
    Mr. Strongheart-Lopez. Senator, yes, we do have--we are 
hauling water here on Standing Rock. And we're also looking at, 
again, furthering development of our water lines, water 
resources there. And so we do, also.
    Senator Dorgan. All right. Could I just get a brief 
description of the fire prevention program and what impact that 
has on your funding of the reservations? Tex, you mentioned the 
fire prevention program, and I don't know if you did, Ken, or 
not. Do you want to tell me?
    Mr. Davis. The program that's targeted for elimination is 
community fire protection. That's structural programs. And at 
Turtle Mountain the tribe runs the structural fire protection 
program. Years ago we used to have to rely exclusively on the 
facility management, planned management of the BIA. They were 
the only one in town that had a fire truck. So about 20 years 
ago we had some tribal members that started the department and 
ended up combining the BIA program with the tribal program, and 
we get about $30,000 a year to run a portion of the program. We 
get funding from other sources, but the backbone of it has 
always been the money on TBA and structural fire, 24-hour 
coverage reservationwide for any home fires, and we've had 
them. We've lost tribal members and babies, and so forth, in 
some of the home fires. Just recently a couple years ago we 
lost a couple children. But this program is a public safety 
program and, you know, there's no other resource available to 
replace it.
    Senator Dorgan. I want to ask you just for 1 moment about 
hunger and the issue of feeding programs on the reservation. 
Some years ago then Congressman Tony Hall from Ohio and I held 
a gathering at the Standing Rock Reservation about the feeding 
programs, the food that was coming from USDA, and particularly 
it was canned meats and other things, that we were doing some 
work on the quality of it, which was horrible quality, very 
high in fat, and so on. Tell me now about the programs that 
would address hunger on the reservation, and is there hunger, 
how effectively is that addressed?
    Mr. Davis. Well, we have Meals on Wheels for elders, which 
is not adequately funded. We've got the USDA hot lunch programs 
at the schools and we also got the commodity programs, and then 
we have the food stamp programs. And, of course, the intent of 
the administration is to totally eliminate the commodity 
program in USDA that comes through the State to the 
reservations.
    And the problem there, Senator, is that the people right 
now have a choice between going and applying for food stamps or 
USDA commodities. And there's a sliding scale for the food 
stamp program, so you can get, say, $200 of food stamps or you 
can get $25. On the commodities, if you're eligible, you get 
everything. So a lot of individuals that just get a small 
amount of eligibility, instead go under the commodities program 
so they get the full amount for their families. And the program 
has improved drastically over the years.
    I grew up on commodities and, you know, I know that the 
cheese and the flour and the fry bread and the lard, and so 
forth, attributed to my obesity. But the program nutritionally 
has improved drastically over the years, and I am opposed to 
any elimination of the USDA commodity program by the 
administration.
    Senator Dorgan. Ken, I hope you're starting to substitute 
for that lard. We've learned a lot since the old days and get 
that lard out of the diet they tell us, I guess, anyway. Thank 
you very much, Ken, for that. Myra, the feeding programs, the 
commodity and hunger programs.
    Ms. Pearson. We have the same programs, but the only thing 
is our elderly feeding program is--you know, they don't get 
enough money to provide food year-round for the elders, and 
they do deliver most of the meals again because of 
transportation, but we do supplement them somewhat, too, to see 
that they make it through to the end of the fiscal year.
    The schools have the hot lunch feeding program, but, again, 
some of the kids, because of the mere fact that, you know, the 
applications aren't turned in, they have to pay the full price 
for some of those meals. A lot of our children attend school 
off the reservation to the Minnewaukan, Warwick and Sheyenne 
School Districts, Devils Lake School District, and they also 
have to pay for their meals when they attend there. If it's not 
full cost, then they pay, you know, part of the cost of their 
hot lunch, so we try to supplement in those areas.
    Senator Dorgan. All right. Tex.
    Mr. Hall. Mr. Chairman, can I briefly go back to the fire?
    Senator Dorgan. Yes.
    Mr. Hall. The fire program has about 185,000 for our tribe. 
It employs two fire people per segment, so it's 12 total. 
That's the only fire program that we have. It's for grassland 
mainly, but it also protects home, because if that's the only 
water truck in town, that's what you have to use when there's a 
fire. We tried to apply for the Homeland Security grants that 
come down for a nice, state-of-the-art fire truck, and their 
answer was, well, you don't have a structural program. You just 
have a grassland program. So if we lose our grassland program, 
there will be nothing out there. So I'm really concerned about 
not having any fire protection at all in our community.
    On the commodity program we probably have over 1,000 people 
that use the commodity program, so it is a critical program. 
And kind of like Ken, I went to college on commodities because 
at Dickinson State you only had a meal program Monday through 
Friday. You didn't get a meal on Saturday, Sunday, so if it 
wasn't for those commodities, I wouldn't have stayed in 
college. You either eat or you go home because there's no food 
there on a weekend program at Dickinson State--well, back in 
the seventies, anyway. Maybe they do now.
    But, anyway, over 1,000 people use this program, and it's 
really improved tremendously. Our program--Joe Henry runs our 
commodities program and works with Red Gates down at Standing 
Rock. And it's really a more healthy product now. It's got real 
fruit, real vegetables. It eliminated that chopped meat with 
all that lard in it and it's got margarine instead of butter 
and it's got real brand-name cereal. So the work that you and 
Congressman Hall did must have really completely turned that 
program around, because I remember what it was like in the 
seventies and it doesn't look like that today.
    Senator Dorgan. You know, Red Gates is one of the reasons 
that we decided to go down to Standing Rock and take a look at 
those commodities and meet with people, and I remember Tony 
Hall's reaction when we opened up those cans and those jars and 
we saw the kind of meat that was in it and the lard, and so on. 
But he's been working on those issues for a long, long time--
Mr. Gates has.
    I want to ask if there are other issues that you would like 
to comment on before we adjourn? And I want to say a couple 
other things, too. The issue of human needs, especially with 
respect to the choices by the Congress and the President, the 
issue of human needs is really very important. And sometimes in 
the Congress, especially at a national level, this is debated 
in the guise of statistics, but it really is not about 
statistics. It's about families. It's about people who are 
living in poverty. It's about people who seem hopeless and 
helpless and wonder how they're going to get out of the 
circumstances they're in. And it's about a country deciding to 
pay attention to those that are struggling. And there's no 
greater need, I think, than the need that exists on Indian 
reservations, and part of our responsibility, I think, is to 
help with economic development. Part of it is funding 
education. Economic development is about jobs. Education is 
about opportunities. But at the start you also have to take 
care of the basic human needs, and that's why I wanted to have 
some discussion from you about the issues of hunger and poverty 
and school children needing tutoring, the basics. You've got to 
take care of the basics first and then work on the other 
issues.
    On health care, I know that there are statistics I've seen 
that say to us--we have a trust responsibility for health care 
for Native Americans. That's not an option. That's a trust 
responsibility that our country inherited, agreed to, and we 
spend, I believe, about one-half as much per person on health 
care for American Indians as we do for those who are 
incarcerated in American prisons. We also have a health care 
responsibility for those who are incarcerated. They're our 
charge, our responsibility. So we spend twice as much per 
person for them as we do for health care for American Indians. 
And it describes, I think, how underfunded the Indian Health 
Service is in a circumstance where we meet, Tex, you say on 
your 68 reservation, 40 or 45 percent, the national figures I 
think are probably around 60 percent, but where we don't meet 
40 percent of the health care needs, and there are people on 
reservations walking around today who have a condition that is 
chronic and painful and difficult, it may not threaten their 
life and limb, but it desperately needs treatment and they're 
not getting the treatment because they're told they're not 
priority 1 and contract health service won't pay for it. That's 
shameful in my judgment. And this country needs to do much, 
much better than that.
    I would like to offer each of you the opportunity to make 
any closing comments, and let me start with you, Matt.
    Mr. Strongheart-Lopez. Thank you, Senator. I just want to 
thank you for your comments, as well, and your concerns for the 
human needs in Indian country and your concern for the 
economics, and so forth, and poverty levels. You know, to tie 
all these things together, you know, we see that poverty level 
as a cutting-off place if one should choose to get that job in 
construction, or so forth, that then begins to make him 
ineligible for our programs that we have set up in the system 
for them and it gives them--they lose that desire and that 
drive to continue on, and so we need to adjust that poverty 
level somehow within that government.
    So I just wanted to mention back again also for the 
economics that on Standing Rock, as you know, we've been 3 
years in construction with our streets and highways programs. 
The win thing for our tribal government in that is that it 
provided those jobs for our enrolled members in that 
timeframe--in that 3-year timeframe.
    And we just want to thank you again, Senator, for your work 
and your input on that, and I know we have looked for target 
projects of that magnitude in other areas and trying to 
resurrect the bridge over Oahe project in looking at trying to 
see if the same results as the Government raising that poverty 
level and the employment issues and also helping the people 
meet the needs of their health insurance, and so forth, so it's 
important for us to look at that great project, and I know it's 
been a sore point at times and we need to understand that if we 
can pursue that, it will increase and it will grow our economy 
here at Standing Rock.
    Senator Dorgan. Matt, we tried very hard for a period of 
time almost 10 years ago where there was, I think, a window to 
try to get that done and we were unsuccessful in working with 
the tribe. As you know, there were burial ground issues, and 
every time we thought we were making progress, another issue 
was raised. And I think, you know, we may well be beyond that, 
but we'll talk about it. It is an authorized project, but has 
not ever been funded, and we've had two occasions where we 
worked pretty hard to see if we could get something started and 
it just--the tribe was impossibly divided, as you know, on a 
wide range of things and it just took forever and ever and 
ever, and I finally said, you know, we've got to some closure 
and it was impossible to do. We will continue to talk about 
that at some point in the future. Thank you very much.
    Thank you. In our instance, as we grow, as we mature in 
Indian country, we appreciate that. Thank you.
    Chairman Davis.
    Mr. Davis. I didn't get a chance to comment much on the 
economic development, but when you compare the unemployment of 
Indian tribes in North Dakota and the State as a whole, there 
is a horrific difference. We're not making these figures up, 
Senator. I've given you statistics here that shows that we had 
over 1,400 people last year on welfare assistance at Turtle 
Mountain, plus there was another eight to nine hundred 
individuals over in Rolette County that got TANF assistance. So 
the figures are not made up. It's a real world out there.
    We have been getting a lot of lip service about economic 
development from the Administration and they say it's a 
priority. Of course, they look at our gaming enterprises and 
think, well, things are all hunky-dory, everybody is making a 
whole bunch of money, but, as we've shown you this morning, 
that is not really the case.
    I do think that the Indian Finance Act of 1974 had 
authorizations in there. Of course, no money has been 
appropriated in a couple of those vital areas, particularly the 
grant program and the direct loan program, and I know that 
there was a sense that those were failures, but I'm going to 
tell you they were not failures. They were Indian people's 
first opportunities to go into business, private commercial 
businesses in Indian country. That generation planted the seed 
for what's going on today for more business conscious, for more 
entrepreneurial conscious and that money was not wasted. And so 
if we're going to continue--and I think Indian tribes are going 
to have to compete in the global economy, starting in the state 
and going national and going global, and we're doing some of 
that right now with some of the businesses, and with assistance 
from yourself and Senator McCain and Senator Inouye, some of 
the contracts we've gotten on a national basis.
    I want to say one more thing in closing, that we had a 
celebration 1 year ago at Turtle Mountain that we commemorated 
the last signing of our agreement, the McCumber agreement, on 
February 15, 1905, with the United States of America, and at 
that time we had no welfare at Turtle Mountain, we didn't have 
any jails at Turtle Mountain, and it was only 100 years ago. 
Our people were fairly self-sufficient and we just went through 
a drastic change in our way of life. We were a buffalo tribe. 
And the last 100 years have been a shameful history for people 
in many areas. And I think that I've given you information in 
my presentation about some very vital statistics, and over an 
extended period of time now vital programs for us have not 
fulfilled the needs of our people. You only have to go to the 
U.S. Office of Civil Rights report on a crisis to know that 
Indian people in this country have not participated in our fair 
share of the public support of needed programs.
    One last comment. I belong to the Aberdeen Area Tribal 
Chairman's Health Board, and we have provided you additional 
testimony here today to answer some of the questions you had 
about the priority 1, and so forth.
    Senator Dorgan. Chairman Davis, thank you.
    Mr. Davis. Thank you very much and your committee for your 
presence today.
    Senator Dorgan. Chairman Davis, thank you very much. 
Chairwoman Pearson.
    Ms. Pearson. I, too, Senator Dorgan, would like to thank 
you for allowing us here today and hope you've listened to all 
our needs and our priorities and stuff, but at the same time 
life goes on, and we as Indian people, Native Americans, we 
have a sense of humor that, you know, we'll laugh our way 
through this and hopefully that we come out on the good end of 
it.
    I was on the council before and things haven't changed much 
since then. I come back to address the same needs that I left 
with back then, and hopefully this time I'll stay a little 
longer to see something get done. It's not an easy job and I've 
got some good people helping me, as well as my counterparts 
here at United Tribes. I also want to thank Dr. Gipp for all 
the assistance and help that he's given me and for the great 
job he's doing at United Tribes, and I hope you can do all you 
can to assist him. My voice is going out a little bit so I 
better quit.
    But I do have some good things that have happened at Spirit 
Lake. We are going to have our own propane company. One of our 
enrolled members have started that up. We've got the wind 
energy that one of Chairman Hall's members have come in to help 
us with, and hopefully we can get that going.
    We have our commodity program that we talked about, and 
what we do there, and I should have mentioned it, but we do 
process our buffalo. We have a 200-head herd of buffalo that we 
use and we process and that is taken down to the commodity 
house and it's stored there for our diabetics. Our diabetic 
people are allowed to go down there and get what they can 
because it's supposed to be good for their diets.
    And as far as our fire department, I want to remind 
everyone that the reason why we got that fire department was 
because of the disaster that, you know, took the lives of three 
children and we didn't have a fire department then, and because 
of the deaths of those children, our housing authority with the 
fire hall finally made it a reality to have a structural fire 
department. The day that those children died there was a fire 
truck sitting across the street that was a BIA fire truck, and 
because of their restrictions on where they service, they 
weren't allowed to put that fire out, but when they did put it 
out, those children were still in that house and that was the 
reason why our fire department was started back then. And I 
hope you can give us some support there in retaining that fire 
department. We're down to a minimum now, too, but if we can 
keep it without a problem.
    I think I've said enough and, again, I would like to thank 
you all for allowing me to sit here today and express my views. 
Thank you.
    Senator Dorgan. Thank you very much. Chairman Hall.
    Mr. Hall. Thank you, Mr. Chairman. Just a comment on two 
things, the human side of things as you mentioned and then I 
want to mention on S. 2078.
    I think of the old people as we were all talking today. I 
think about our ancestors. And there's something about our 
tribes, we never forget where we came from, from our fathers 
and mothers and our grandparents and our great-grandparents and 
our chiefs that settled this country and lived here thousands 
of years and how they must have felt when they entered into 
treaties with the United States. They weren't certain in 1851 
what that meant. But when the United States came and said if 
you sign this peace treaty, as long as the grass grows and the 
wind blows and the water flows, we'll provide for your health, 
education and welfare and you can trust the great white father 
in Washington. Then, of course, we know what happened, they 
took the land.
    And then in 1948 I think of our relatives, too, that they 
said they signed the Garrison Dam with a heavy heart and it 
split our people almost 50-50, those that said, well, we got to 
trust the United States, we got to trust them. If they flood 
us, they say they're going to provide for a new health facility 
they're going to provide for a new education facility and it 
was half of our people that didn't believe them. They said 
remember the treaty in 1851. They never lived up to that and we 
have to think of our children so, no we're not going to support 
the Garrison Dam, so it divided us completely in two. And now 
we're coming back around, we're seeing a budget that takes away 
from school construction, a budget that takes away from 
facilities construction, a budget that takes away from economic 
development, a budget that wipes out Johnson O'Malley for 
after-school children.
    And getting back to health care, Mr. Chairman, you 
mentioned the prisoners and there's a joke in Indian country if 
you want to get a surgery you've got to commit a crime, you 
know because you'll get a surgery there.
    You know, that priority 1 and priority 2 and 3 is all 
hogwash. That's rationed health care. That's not providing real 
health care for people. Our people are prisoners after 5 
o'clock or on weekends because you can't get access to the 
clinic after 5 o'clock or you can't get access to that clinic 
on Saturday or Sunday, so if you've got a gallbladder, tough 
luck because that's not going to be approved for your priority 
1 because that's a priority 2 or priority 3. Or if your mother 
needs a mammogram or your grandmother, your aunt needs a 
mammogram, tough luck, she's got to wait until she's got cancer 
before she gets approval for priority 1, then we know it's too 
late.
    I could go on and on, Mr. Chairman, and you know these 
things. I'm basically talking for the record, you know, because 
I know you understand the needs of our tribes. But I think 
about those things about our ancestors and about how they would 
think about where we've come. We make progress and then we go 
backward, and we're going backward in this 2007 budget, so I 
wonder not only about today, but I wonder about 2008 and 2009 
and I wonder when I'm not in this chair, what is it going to be 
like in 10, 20 years from now, where are we going to be. So I 
just wanted to state those things and it really concerns me 
about where we're going and why we're not providing for our 
people.
    And then in closing I just want to mention, Mr. Chairman, 
on McCain's S. 2078, the North Dakota tribes are totally 
opposed to it. It appears that Senator McCain wants to make the 
NIGC the BIA of Indian gaming and that totally goes against 
self-determination. We have tribal gaming commissioners that 
all have been approved. We have State compacts that the 
attorney general of North Dakota and the state have negotiated 
and we've provide regulation, yet it appears 2078 wants to 
completely put the NIGC on every tribal council. That's 
basically--it would be like the BIA managing every piece of our 
land. The NIGC now under this S. 2078 would manage every aspect 
of gaming, and I think that would be an economic detriment.
    And if somebody committed some wrongdoing in some other 
State, why do we have to pay that price in North Dakota when we 
need those dollars to replace what those charts are saying that 
we're losing under the Federal Government? So we ask for your 
consideration in that, Mr. Chairman.
    It's been a great honor to testify here today in North 
Dakota at United Tribes Technical College with you as the 
chairman of the committee today.
    Senator Dorgan. Chairman Hall, thank you very much. We will 
have in the future discussion about Senator McCain's bill. In 
fact, there will be a hearing on that very soon, and I will 
have a discussion with the tribal chairs in North Dakota about 
it. It's a very important issue.
    I want to just make one final comment. We have necessarily 
been talking about what's wrong and how to fix it today, and 
when you do that at a hearing, you talk about what isn't 
working. I held a meeting in Minot once, among many town 
meetings, hundreds and hundreds that I've had over the years, 
and started the meeting--it's the only one I've ever done this 
way--I said to the people who came to the meeting, I want to do 
something a little different. We're going to have a town 
meeting to talk about our lives and what's going on. I don't 
want anyone to do anything other than talk about what's right 
in their lives, what works in their lives. We can't criticize 
anything. We just want to talk about what's right. And it was 
very hard for all of us to do that because our nature is to 
figure out what's wrong and how to fix it. But it was very 
interesting, as well.
    After about 15 minutes where I said, no, no, you can't say 
that, no, no, you can't do that, pretty soon they would have to 
start thinking, I had this wonderful teacher that had a 
profound impact on my life or I've got a person down the street 
that has this business, it's the most unbelievable person 
you've ever met, and pretty soon people were talking about what 
really works in their lives.
    Now, we could, because we're talking about what's wrong, 
and we have four tribal leaders here, we could have spent the 
time perhaps differently, and my guess is if we had allotted a 
couple of hours for you to talk about what's working and what's 
right, my guess is you can tell me about the 41-year-old mother 
of four that graduates from a tribal college against all the 
odds, you can tell me about all those success stories. And I 
just don't want the fact that these hearings--the nature of 
these hearings is about what's wrong and how to fix it, I don't 
want that fact to obscure the leadership that exists and the 
interests of individuals, as well as tribal leaders, to better 
their lives and to invest in making life better for themselves. 
That's going on all around the country on reservations and it's 
going on right here at United Tribes.
    So I want to end by saying I think there are enormous 
challenges, and there are misjudgments being made about 
priorities and choices in these budgets, but there are also 
some really good things happening, and if we work together I 
think all of us can amplify those good things and build on them 
to create a much better and brighter future. That's what we owe 
our children and that's what we owe our elders and we inherited 
that responsibility. There's nobody--nobody better to do that 
than us. That's why we're here at this time and it's our job.
    This hearing is adjourned.
    [Whereupon, at 12:38 p.m. the hearing was concluded.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


  Prepared Statement of Hon. John McCain, U.S. Senator from Arizona, 
                 Chairman, Committee on Indian Affairs

    Good morning. I'm sorry that I cannot be with you this morning, but 
want to thank my friend and colleague, Senator Dorgan, for holding this 
hearing, and thank the witnesses for testifying on the President's 
Budget Request for Fiscal Year 2007.
    While we must all be concerned by our country's burgeoning budget 
deficit, we must also be mindful of the Federal Government's trust and 
moral obligations to Native Americans.
    In evaluating the budget request against this backdrop, I am 
disturbed by many of the cuts that have been proposed to programs that 
already fall far short of meeting needs. I look forward to reviewing 
the testimony from today's hearing.
                                 ______
                                 

 Prepared Statement of Hon. Kent Conrad, U.S. Senator from North Dakota

    I want to extend my thanks and appreciation to Senator Dorgan for 
holding this important hearing on the President's fiscal year 2007 
budget request and its impact on the tribes in North Dakota. Thank you 
to each of the tribal leaders who is here today to present testimony.
    While I am unable to attend today's hearing, I did want to share 
some of my observations and concerns with this budget. Overall I must 
say that I am deeply disappointed with the President's budget and his 
disregard of the Federal Government's clear trust responsibility to 
American Indians. This budget fails in every conceivable way to address 
the growing unmet needs in education, housing, and health care.
    I am very troubled that for a fifth straight year the budget fails 
to provide funding for United Tribes Technical College [UTTC]. This 
administration simply has no justifiable reason for eliminating its 
funding.
    For 37 years UTTC has been providing a quality education for many 
across the Great Plains. The college has had the strong support of past 
administrations to provide educational services to students and 
families. Only when this administration took office did this college, 
its students, and faculty come under attack. It is hard to comprehend 
why the administration wants to close this college which, has an 87-
percent retention rate, a 95-percent placement rate, and a return on 
Federal investment of 20 to 1.
    The BIA argues UTTC's funding through the Department of Education 
is sufficient to meet the needs of the college. However, the funding 
provided through the BIA accounts for one-half of UTTC's annual 
operating budget and is critical to keeping its doors open.
    More than 1,000 ``real'' people are impacted by this cut. It is 
shameful that this budget would again yank the rug out from under these 
students.
    On a more positive note, after several consecutive years of deep 
cuts, the administration is finally recognizing the importance of 
tribal colleges.
    Tribal colleges provide hope and opportunity to thousands who might 
not otherwise get the chance to achieve a higher education. For far too 
long, this administration had short-changed these successful colleges, 
providing less and less funding. This budget takes a positive step in 
providing the necessary resources to support these valuable 
institutions; however, I and many others will be working to boost 
funding for the tribal colleges even more as the budget and 
appropriations process gets underway.
    The President's budget is also very troubling in the area of 
American Indian housing. Housing is a basic fundamental need. Yet, the 
reservations here in North Dakota are plagued by a chronic shortage of 
decent, affordable housing. The President's answer is to cut funding 
for Indian housing block grants, even though the needs reach $1 
billion.
    Finally, let me say a few words about health care, because the lack 
of adequate funding in the President's budget is very concerning to me.
    In 2004, the U.S. Commission on Civil Rights issued a report on the 
Native American health care system. The Commission's report noted 
``persistent discrimination and neglect continue to deprive Native 
Americans of a health system sufficient to provide health care 
equivalent to that provided to the vast majority of Americans.'' It is 
very troubling that in the 21'' Century Native Americans still do not 
have the access to the quality health care to which they are entitled.
    Unfortunately, the President's budget fails to bridge this gap. It 
fails to address the increasing health care demands due to population 
growth and increasing medical costs, which have resulted in ballooning 
unmet needs.
    In North Dakota, where certain kinds of health services are not 
available through IHS, tribes rely on contract health care. However, 
because of the limited funding available to purchase contract care, a 
patient must fall within the priority 1 category, which means the 
patient must have a life threatening illness or injury to receive care.
    At present, only one-half of the needs in contract health are being 
met, leaving many without access to the care they need. The President's 
response is to only include about a $37-million increase for contract 
health care, hardly enough to expand services beyond priority 1 
patients.
    The road to reverse these cuts will be difficult. Yet, if we 
continue down this road, the gap between needs and funding to meet 
those needs will continue to enlarge to a point of no return. We simply 
cannot allow this to happen. We cannot continue to ignore the Federal 
Government's trust responsibilities to tribes.
    Again, I thank the witnesses for being here today and look forward 
to your input on how we can make real progress on these serious 
challenges.
                                 ______
                                 

 Prepared Statement of David Gipp, President, United Tribes Technical 
                                College

    Welcome, Senator Dorgan, members of the Senate Committee on Indian 
Affairs, tribal leaders, guests, and members of the public. Thank you, 
Senator, for allowing me to make an opening statement on behalf of 
United Tribes Technical College at today's historic hearing regarding 
the impact of the President's proposed budget for fiscal year 2007 on 
Native Americans. United Tribes is honored to be able to host the 
hearing today on the campus of United Tribes Technical College.
    As you know, of course, the core funding for United Tribes 
Technical College provided through our Self-Determination and Education 
Assistance Act [Public Law 93-638] contract was once again left out of 
the President's budget proposal for fiscal year 2007. This represents 6 
years in a row that funding for our institution has been omitted. Yet, 
the Self-Determination Act requires that the President request the 
funds each year a valid contract is in effect. This year is the third 
year of a 3-year contracting cycle for us, and we are now a self-
determination contractor with mature status, which should make renewal 
of the contract automatic. Yet, these legal obligations were ignored in 
the President's proposed fiscal year 2007 budget.
    Leaving us out of the budget for fiscal year 2007 is now even more 
painful, because we serve over twice as many students as we did just 2 
years ago, and yet we have not received any increase in funding. Our 
student count for this school year is over 1,000 students, and we serve 
nearly 400 children of students and staff in our day care and K-8 
elementary school facilities. Thus, we are doing twice as much on the 
same amount of funds. Our cost per student has decreased dramatically, 
but we cannot sustain the present level of students on the same amount 
of funding.
    Without the core funding we have received every year since our 
founding in 1969, the impact of the President's budget on us could be 
severe. We are very thankful and grateful that in previous years, 
largely through the efforts of you, Senator Dorgan, our core funding 
has been restored.
    But we should not have to go through this exercise every year, as 
we know that we provide a vital service to many, many, tribal citizens 
and their families as they seek a solid education and seek to improve 
their lives. Our retention rate is more than 85 percent. We place 
nearly all of our graduates in meaningful jobs they would not otherwise 
have been able to obtain if they had not come here for there education. 
Based on a recent survey, verified independently, the return on the 
investment the United States makes in our institution is 20 to 1. For 
every dollar invested by the United States at United Tribes, the 
students who graduate return $20 over the course of their lifetimes to 
the U.S. Treasury. Few investments anywhere have that kind of rate of 
return.
    Therefore, we are requesting $ 4.5 million in direct funding from 
the BIA as our core funding under the Self-Determination Act for fiscal 
year 2007, an increase of $ 1.05 million from our current funded 
amount. We believe the BIA would be providing that kind of funding if 
it were operating this program, and more. This amount remains a modest 
request. For fiscal year 1978, we requested $2.75 million for the core 
funding of our self-determination contract with the BIA. In today's 
dollars, that amount would be more than $10 million. We are truly doing 
more with less money, but that cannot continue indefinitely.
    Just as important as our core funding is the need for housing for 
our students. Most of our students do not have funding for off-campus 
housing, and we prefer that they stay on campus as much as possible, 
because all of our services our here--cafeteria, elementary school, 
security and day care, among other things. For fiscal year 2007, we are 
asking for a facilities grant of $5 million to enable us to provide 
housing for as many as 100 students now housed off campus. For fiscal 
year 2008, we anticipate making a similar request for facilities, to 
begin to assist us both with our new campus and to keep up the 
buildings we are now using, many of which are more than 100 years old. 
For operational funds, we will also request an amount similar to what 
we are requesting for fiscal year 2007, and further, we expect that we 
will finally be put back in the President's budget.
    And that is just the impact of the President's budget on United 
Tribes.
    I know that there are many other issues that tribal leaders in this 
region want to talk about today, and I will conclude shortly. But I 
would be remiss if I didn't mention briefly three other areas, as well.
    First, we need to make sure our tribal colleges in general are 
adequately funded. It is unconscionable that the President's budget 
once again treats tribal colleges as the stepchildren of the higher 
education system in this country. Operating without a tax base, they 
receive less than one-half per student of what non-tribal publicly 
supported community colleges receive. The tribal colleges provide 
critical pathways for tribal citizens learning new skills, and are 
often exactly the training ground needed for students to be able to 
attend 4-year institutions. And not only do tribal colleges train 
tribal citizens, they also serve, most often without additional 
funding, non-Indians from the local communities.
    Second, obtaining enough safe, comfortable and affordable housing 
remains a critical need for the citizens of most our tribal nations in 
the Great Plains. The President's budget is woefully inadequate in this 
regard. Housing has always been a fundamental trust responsibility, 
under the treaties signed with our tribal nations in this region. 
People are still on waiting lists for housing for up to 20 years, 
living two and three families to a house, and that includes tribal 
citizens who can afford to pay for housing. The President's budget also 
eliminates a key program for improving existing housing stock; the 
Housing Improvement Program [HIP]. Without adequate housing, economic 
development that creates jobs does not happen. Without adequate 
housing, many social problems will continue unabated. Housing is 
another tremendously effective investment, if done correctly. We have 
seen too often in Indian country how cutting corners on safe and 
affordable housing, and forcing people to do without adequate housing, 
creates negative social and economic impacts. The problem with black 
mold in our region is but one example of inadequate housing 
construction techniques.
    Third, we need to insure that appropriate health care is provided 
to all tribal citizens of our region. Once again, the President's 
budget does not even keep pace with inflation in this area. A Federal 
prisoner receives twice as much funding for health care as a tribal 
citizen receives from the Indian Health Service. Further, if a tribal 
citizen from the Cheyenne River Tribe is living in Bismarck, that 
citizen ought to be able to receive health care in Bismarck and expect 
that the Indian Health Service will pick up the cost if he or she 
cannot afford insurance or the cost of that health care. Some of our 
staff have had their credit ruined because of the lack of IHS funds for 
off-reservation care. We also need adequate funding for our injury 
prevention programs across the United States. Too many tribal citizens 
die needlessly from preventable accidents. Health care, like housing, 
is a fundamental treaty obligation that ought to fulfilled.
    I know there are many other issues that tribal leaders will be 
speaking about. Again, welcome to all, and Senator Dorgan, we thank you 
again for your continued support of our efforts at United Tribes 
Technical College.
                                 ______
                                 

Prepared Statement of Hon. Earl Pomeroy, U.S. Representative from North 
                                 Dakota

    First, I would like to thank you and the Senate Committee on Indian 
Affairs for holding these hearings. The Federal budget contains many 
programs that are important to North Dakota's tribes. I want to thank 
the tribal leaders for being in attendance today and discussing these 
issues.
    With strong leadership, North Dakota's American Indian Tribes have 
worked hard to meet the needs of their people. North Dakota's tribes 
have developed strong tribal colleges, which help lay the foundation 
for growth and renewal on reservations. North Dakota's tribes also have 
improved the infrastructure in the region with the opening of the new 
Four Bears Bridge and procuring the National Scenic Byway designation 
for Standing Rock Scenic Byway. However, North Dakota's tribes still 
face many unique issues. The inflexibility and underfunding of No Child 
Left Behind has made its implementation in BIA schools in North Dakota 
difficult, Also, American Indians' life expectancy is 5.9 years less 
than that of the total U.S. populations and suicide is the second-
leading cause of death for American Indian and Alaskan Native youth 
aged 15-24.
    The Federal Government has an obligation to assist American Indian 
tribes with these needs. Crucial programs for American Indians must 
receive adequate funding. The President's request would reduce the 
overall BIA budget by 1 percent and cuts funding to many important 
programs ranging from the Indian Child Welfare Act to funding for 
tribal courts. In addition, funding for the construction of education 
facilities has been cut by over 60 percent and construction for Indian 
Health Services facilities construction has been cut by almost 10 
percent. Finally, the United Tribes Technical College received no 
funding under the administration's budget proposal.
    While North Dakota's tribes are working diligently toward improving 
the state of their tribes, the Federal Government has a clear 
responsibility to assist tribes in addressing these issues. It is my 
hope that, as the budget process progresses, American Indian tribes 
will receive the attention and funding they need.
    I look forward to reviewing the testimony of the tribal leaders in 
attendance today and regret I can not be there to hear your concerns in 
person.
                                 ______
                                 

  Prepared Statement of Matt Strongheart-Lopez, Member, Standing Rock 
Sioux Tribal Council, on behalf of Ron His Horse Is Thunder, Chairman, 
                   Standing Rock Sioux Tribal Council

    Good morning, Senator Dorgan. I bear greetings from the Dakota and 
Lakota people of the Standing Rock Sioux Tribe. My name is Matt 
Strongheart-Lopez. I am an At-Large Representative member of the 
Standing Rock Sioux Tribal Council, and serve as Vice-Chairman of the 
Standing Rock Sioux Tribal Council's Health, Education, and Welfare 
Committee.
    I am honored to deliver testimony to this committee on behalf of 
Chairman Ron His Horse Is Thunder. Chairman His Horse Is Thunder is 
unable to be here today due to the passing of one of our colleagues, 
James Jamerson, Standing Rock Sioux Tribal Council Representative from 
the Running Antelope District. Mr. Jamerson passed away last week, and 
his funeral services are today.
    On behalf of the Standing Rock Sioux Tribe, I wish to thank you for 
the opportunity to share with this committee, the distressing concerns 
of the Standing Rock Sioux Tribe regarding the President's Fiscal Year 
2007 Budget Request for Indian Programs.
    As is the case with many other American Indian nations, the 
Standing Rock Sioux Tribe is challenged with many formidable 
difficulties and obstacles in achieving a sound quality of life for its 
9,000 resident members. In addition to the challenges posed by 
geographic isolation, the communities and people of the Standing Rock 
Sioux Tribe, though prideful of our glorious Dakota/Lakota heritage and 
historical contributions to American society, remain as some of the 
poorest and most overlooked in this country.
    Coincidently, most of the challenges we are faced with overcoming 
today are issue areas associated with the terms and obligations of the 
Federal Government which are outlined in our 1868 treaties with the 
United States of America. These treaty issue-challenges include health 
care and education disparities, and inadequate housing and 
infrastructure.
    Just as great leaders from Standing Rock, such as Sitting Bull, 
Gall, and Two Bears, envisioned a prosperous Dakota/Lakota Nation 7 
generations from their time, we, in this generation, are working toward 
a prosperous Standing Rock 7 generations from today. In order to 
accomplish our cultural and spiritual obligations to our Dakota and 
Lakota descendants, we will continue to rely on the treaty promises 
made to our forefathers seven generations ago. Promises made in 
exchange for peace, our livelihood, and most of our best lands.
    Although we are not surprised by the fact that the needs of Indian 
country and Standing Rock are not prioritized in the President's Fiscal 
Year 2007 Budget Request, we are, however, very discontented that 
funding for critical Federal Indian programs is slated for reduction. 
While we appreciate the slight increase proposed for the Indian Health 
Services budget, the proposed cuts to other important programs in 
Indian country are hugely troublesome, especially since all of our 
communities at Standing Rock continue to grow at a very rapid rate. 
Current levels of funding for Federal Indian programs at Standing Rock 
are woefully inadequate and cover only about 40-percent, at the most, 
of our actual needs. In light of forecast population growth at Standing 
Rock, future reduced or stagnant funding of critical Indian programs 
will translate into dire conditions and additional challenges.
    The list of needs and challenges at Standing Rock is long. One very 
important item proposed for elimination in the President's 2007 Budget 
is the Johnson O'Malley Grant Program. The elimination of this crucial 
program will further inhibit the academic successes of over one-half of 
all Standing Rock's elementary, middle, and secondary students. Of the 
9 school systems on the Standing Rock reservation, 6 are public schools 
and 3 are BIA-funded schools. Standing Rock children who attend those 
three BIA-funded schools will inevitably absorb the proposed $1.3 
million cut to BIA Office of Indian Education Programs funding.
    Additionally, the planned realignment of BIA Office of Indian 
Education Programs Education Line Officers is quite problematic. The 
proposal would split Standing Rock and cause the Bureau school 
administrators on the South Dakota portion of Standing Rock to report 
to an Education Line Office in Pierre, while administrators on the 
North Dakota side would report to an office in Minot, thus removing 
essential services and technical assistance from the local agency level 
at Fort Yates to distances far removed from Standing Rock.
    As well, the proposed $65 million reduction in overall BIA funding 
will likely translate into additional strains on BIA Law Enforcement 
Services at Standing Rock. As it is, budget constraints allow for only 
7 BIA Law Enforcement officers to patrol all 8 districts, 1,300-plus 
miles of roads, and nearly 850,000 acres of tribal/trust lands of the 
Standing Rock Reservation.
    Since 1997, the Dakota and Lakota people of Standing Rock have 
endured tragic and painful losses of its young people to suicide. 
Sadly, we have the task of interring another young person tomorrow. 
Additional funding for suicide prevention, intervention, and post-
intervention care and services will not immediately and completely 
abate future tragedies, but it will assist immensely. Certainly, 
stagnant funding for I.H.S. Mental Health Services or reductions in 
funding for BIA Social Services will not help.
    Again, the current list of needs and challenges at Standing Rock is 
long. With the anticipated doubling of our population in several years 
to come, that list will only become longer if the current rates of 
funding for Federal Indian programs is applied to future allocations. 
The President and Congress must remember that funding for Indian 
programs is not welfare, but payments for large amounts of our 
territory.
    Finally, on a related note, as pro posed budgets for Federal Indian 
programs continues to shrink in light of rising needs and population 
growth all across Indian country, now is not the time to propose 
restrictions on Indian gaming. Although the benefits and revenues of 
Indian gaming enterprises at Standing Rock are meager in comparison to 
that of other tribes, such benefits and revenue assist greatly in 
supplementing critical family and child programs for the Dakota and 
Lakota people of Standing Rock.
    In closing, the Standing Rock Sioux Tribe trusts that members of 
the Senate Committee on Indian Affairs will continue to educate and 
enlighten your Senate colleagues on the importance of adequate funding 
for Federal Indian programs. As well, we will continue to hope that the 
White House will someday acknowledge and prioritize the needs and 
challenges in Indian country.
    Thank you again for the opportunity to share a glimpse of the 
potential impact of the President's Fiscal Year 2007 Budget Request on 
the services and programs for the people of the Standing Rock Sioux 
Tribe.
    I will be happy to answer any questions that you may have.

    [GRAPHIC] [TIFF OMITTED] T6593.001
    
    [GRAPHIC] [TIFF OMITTED] T6593.002
    
    [GRAPHIC] [TIFF OMITTED] T6593.003
    
    [GRAPHIC] [TIFF OMITTED] T6593.004
    
    [GRAPHIC] [TIFF OMITTED] T6593.005
    
    [GRAPHIC] [TIFF OMITTED] T6593.006
    
    [GRAPHIC] [TIFF OMITTED] T6593.007
    
    [GRAPHIC] [TIFF OMITTED] T6593.008
    
    [GRAPHIC] [TIFF OMITTED] T6593.009
    
    [GRAPHIC] [TIFF OMITTED] T6593.010
    
    [GRAPHIC] [TIFF OMITTED] T6593.011
    
    [GRAPHIC] [TIFF OMITTED] T6593.012
    
    [GRAPHIC] [TIFF OMITTED] T6593.013
    
    [GRAPHIC] [TIFF OMITTED] T6593.014
    
    [GRAPHIC] [TIFF OMITTED] T6593.015
    
    [GRAPHIC] [TIFF OMITTED] T6593.016
    
    [GRAPHIC] [TIFF OMITTED] T6593.017
    
    [GRAPHIC] [TIFF OMITTED] T6593.018
    
    [GRAPHIC] [TIFF OMITTED] T6593.019
    
    [GRAPHIC] [TIFF OMITTED] T6593.020
    
    [GRAPHIC] [TIFF OMITTED] T6593.021
    
    [GRAPHIC] [TIFF OMITTED] T6593.022
    
    [GRAPHIC] [TIFF OMITTED] T6593.023
    
    [GRAPHIC] [TIFF OMITTED] T6593.024
    
    [GRAPHIC] [TIFF OMITTED] T6593.025
    
    [GRAPHIC] [TIFF OMITTED] T6593.026
    
    [GRAPHIC] [TIFF OMITTED] T6593.027
    
    [GRAPHIC] [TIFF OMITTED] T6593.028
    
    [GRAPHIC] [TIFF OMITTED] T6593.029
    
    [GRAPHIC] [TIFF OMITTED] T6593.030
    
    [GRAPHIC] [TIFF OMITTED] T6593.031
    
    [GRAPHIC] [TIFF OMITTED] T6593.032
    
    [GRAPHIC] [TIFF OMITTED] T6593.033
    
    [GRAPHIC] [TIFF OMITTED] T6593.034
    
    [GRAPHIC] [TIFF OMITTED] T6593.035
    
    [GRAPHIC] [TIFF OMITTED] T6593.036
    
    [GRAPHIC] [TIFF OMITTED] T6593.037
    
    [GRAPHIC] [TIFF OMITTED] T6593.038
    
    [GRAPHIC] [TIFF OMITTED] T6593.039
    
    [GRAPHIC] [TIFF OMITTED] T6593.040
    
    [GRAPHIC] [TIFF OMITTED] T6593.041
    
    [GRAPHIC] [TIFF OMITTED] T6593.042
    
                                 <all>

</pre></body></html>
